<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     ORGANIZATIONAL MEETING FOR THE
                             117TH CONGRESS

=======================================================================

                                MEETING

                                 OF THE

                        SELECT COMMITTEE ON THE 
                             CLIMATE CRISIS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD
                             MARCH 19, 2021

                               __________

                            Serial No. 117-1
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                            www.govinfo.gov
                            
   Printed for the use of the Select Committee on the Climate Crisis
   
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-077                       WASHINGTON : 2021                     
           
--------------------------------------------------------------------------------------
   
                 
                 
                 SELECT COMMITTEE ON THE CLIMATE CRISIS                            
                
                    One Hundred Seventeenth Congress

                      KATHY CASTOR, Florida, Chair
SUZANNE BONAMICI, Oregon             GARRET GRAVES, Louisiana,
JULIA BROWNLEY, California             Ranking Member
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 DAN CRENSHAW, Texas
VERONICA ESCOBAR, Texas              ANTHONY GONZALEZ, Ohio
                                 ------                                
                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                            
                            
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     4

                           COMMITTEE BUSINESS

Proposed Rules for the 117th Congress............................     7

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                         FRIDAY, MARCH 19, 2021

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:54 a.m., via 
Webex, Hon. Kathy Castor [chairwoman of the committee] 
presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, Levin, Casten, Neguse, Escobar, Graves, Palmer, 
Carter, Miller, Armstrong, Crenshaw, and Gonzalez.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    As a reminder, members participating in a hearing remotely 
should be visible on camera throughout the meeting. And as with 
in person meetings, members are responsible for controlling 
their own microphones. Members can be muted by staff only to 
avoid inadvertent background noise.
    In addition, statements, documents, or motions must be 
submitted to the electronic repository immediately upon 
introduction to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81d2c2c2c2aff3e4f1eef2e8f5eef3f8c1ece0e8edafe9eef4f2e4afe6eef7">[email&#160;protected]</a> for circulation 
to committee members.
    Finally, members or witnesses experiencing technical 
problems should inform committee staff immediately.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Well, good morning, everyone. I am thrilled to welcome you 
to the organizational meeting of the House Select Committee on 
the Climate Crisis, our first in the 117th Congress. I would 
like to express my gratitude to Speaker Pelosi for her deep 
commitment to solving the climate crisis and for allowing the 
Select Committee to continue building on our work for the 
American people.
    Last year, our Select Committee Democratic members released 
a comprehensive set of recommendations for the Congress in a 
staff report entitled, ``Solving the Climate Crisis: The 
Congressional Action Plan for Clean Energy Economy and a 
Healthy, Resilient, and Just America,'' where we highlighted 
bills, including bipartisan bills, to the standing committees.
    This plan would put the United States on a path to net zero 
by 2050 or earlier. It would create much needed jobs in clean 
energy, infrastructure, conservation, manufacturing, 
construction, and other important industries. It would protect 
millions of families and small businesses from costly climate-
fueled risks and harms, and it would advance environmental 
justice for Black, Brown, Native, and low income Americans.
    Our climate crisis action plan has been described as the 
most detailed and well thought out plan for addressing climate 
change that has ever been part of U.S. politics. Now, the work 
ahead of us is clear: We must waste no time in turning our 
recommendations into policy. Families across America have given 
us this strong mandate to act on climate, and younger 
generations are watching. They know their futures hang in the 
balance.
    Our sole item of business today, before we consider the 
committee rules, will be to talk about our jurisdiction, and 
then we will take a moment to introduce our Democratic members, 
and then I will give Ranking Member Graves an opportunity to 
give an opening statement and introduce our Republican members.
    So first on our jurisdiction, it is simple. It is pretty 
straightforward. According to House Resolution 8, our Select 
Committee will have investigative jurisdiction over policies, 
strategies, and innovations to achieve substantial and 
permanent reductions in pollution and other activities that 
contribute to the climate crisis. It is my hope that our Select 
Committee will continue to be a forum to advance important 
solutions for the American people, to find common ground, to 
follow the science, and to approach our differences 
constructively.
    Now I would like to introduce our fabulous Democratic 
members, and at the end, I am going to give our new member, 
Rep. Escobar, an opportunity to introduce herself to the 
committee.
    So, Democratic members include Suzanne Bonamici from 
Oregon. She serves on the Science Committee, where she is 
leading the fight for ocean climate action, and she serves on 
the Committee on Education and Labor.
    Rep. Julia Brownley from California, she serves on the 
Committee on Transportation and Infrastructure, where she is 
pushing for cleaner public transit systems and expanding our 
use of zero-emission vehicles. And Rep. Brownley also serves on 
the Veterans' Affairs Committee.
    Rep. Jared Huffman of California, he is the chair of Water, 
Ocean, and Wildlife Subcommittee in the House Natural Resources 
Committee, where he is a strong champion for public lands and 
waters. He serves, as well, on the Transportation and 
Infrastructure Committee.
    Rep. Don McEachin of Virginia serves on the Energy and 
Commerce Committee, where he has led the charge on securing 
environmental justice for all. He also serves on the Natural 
Resources Committee.
    Congressman Mike Levin of California serves on the Natural 
Resources Committee, where he works to advance safeguards 
against drought, heat waves, and rising sea levels. Rep. Levin 
also is a member of the Veterans' Affairs Committee.
    Rep. Sean Casten of Illinois serves on the Financial 
Services Committee, where he is working to reduce climate risk 
in the financial sector. He also serves on the Science and 
Technology Committee.
    And Rep. Joe Neguse of Colorado is the chair of the 
Subcommittee on National Parks, Forests, and Public Lands in 
the Natural Resources Committee, where he advances protections 
for his communities from climate fueled wildfires and much 
more. Rep. Neguse also serves on the Judiciary Committee.
    And we are so pleased to welcome our newest Democratic 
member, Congresswoman Veronica Escobar of Texas. She is a 
member of the Armed Services Committee, where she is working to 
ensure that our military stands ready to face the climate 
crisis, and she has long championed economic opportunities in 
clean energy. She also serves on the Judiciary Committee.
    Rep. Escobar, as the newest Democratic member of the Select 
Committee, welcome. We are thrilled to have you, along with our 
two new Republican members. Please take a minute to introduce 
yourself to the committee, and the floor is yours.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

             Organizational Meeting for the 117th Congress

                 Select Committee on the Climate Crisis

                             March 19, 2021

                        As Prepared for Delivery

    Thank you all for joining us. I'm thrilled to welcome you to the 
first meeting of the House Select Committee on the Climate Crisis in 
the 117th Congress. Before we begin, I'd like to express my gratitude 
to Speaker Pelosi for her deep commitment to solving the climate 
crisis--and for allowing our Select Committee to continue building on 
our work for the American people.
    Last year, our Select Committee's Democratic Members released a 
comprehensive set of recommendations for Congressional action in the 
staff report titled `Solving The Climate Crisis: The Congressional 
Action Plan for a Clean Energy Economy and a Healthy, Resilient, and 
Just America'. This plan would put the United States on a path to net 
zero by 2050 or earlier. It would create much-needed jobs in clean 
energy, infrastructure, conservation, manufacturing, construction, and 
a number of other industries. It would protect millions of families and 
small businesses from climate-fueled risks and harms. And it would 
advance environmental justice for Black, brown, Native, and low-income 
Americans.
    Our Climate Crisis Action Plan has been described as ``the most 
detailed climate plan in United States political history.'' Now, the 
work ahead of us is clear: we must waste no time turning our 
recommendations into policy. Families across America have given us a 
strong mandate to act on climate. And entire generations are watching, 
knowing their futures hang in the balance.
    Before we consider our committee rules, I'll quickly go over our 
jurisdiction and take a moment to introduce our Democratic members. I 
will then give our Ranking Member an opportunity to give an opening 
statement and introduce our Republican members.
    According to House Resolution 8, our Select Committee will have 
investigative jurisdiction over policies, strategies, and innovations 
to achieve substantial and permanent reductions in pollution and other 
activities that contribute to the climate crisis. It is my hope that 
our Select Committee will continue to be a forum to advance important 
solutions for the American people, to find common ground, to follow the 
science, and to approach our differences constructively.
    With that, I would like to introduce our Democratic members:
    Suzanne Bonamici from Oregon. She serves on the Science Committee, 
where she is leading the fight for ocean climate action, and on the 
Committee on Education and Labor.
    Julia Brownley from California. She serves on the Committee on 
Transportation and Infrastructure, where she is pushing for cleaner 
public transit systems and expanding our use of zero-emission vehicles, 
and she also serves on the Veterans Affairs Committee.
    Jared Huffman from California. He is the Chair of the Water, Ocean 
and Wildlife subcommittee in the House Natural Resources Committee, 
where he is a strong champion for our public lands and water. He also 
serves on the Transportation and Infrastructure Committee.
    Donald McEachin from Virginia. He serves on the Energy and Commerce 
Committee, where he has led the charge on securing environmental 
justice. He also serves on the Natural Resources Committee.
    Mike Levin from California. He serves on the Natural Resources 
Committee, where he works to advance safeguards against droughts, heat 
waves, and rising sea levels. He's also a member of the Veterans' 
Affairs Committee.
    Sean Casten from Illinois. He serves on the Financial Services 
Committee, where he is working to reduce climate risk in the financial 
sector. He also serves on the Science and Technology Committee.
    Joe Neguse from Colorado. He is the Chair of the Subcommittee on 
National Parks, Forests, and Public Lands in the Natural Resources 
Committee, where he can advance protections for his communities from 
climate-fueled wildfires. He also serves on the Judiciary Committee.
    And our newest member, Veronica Escobar from Texas. She is a member 
of the Armed Services Committee, where she is working to ensure our 
military stands ready to face the climate crisis, and she has long 
championed the economic opportunities in clean energy. She also serves 
on the Judiciary Committee.
    Rep. Escobar, as the newest Democratic member of the Select 
Committee, let me give you a minute to introduce yourself.
    [Rep. Escobar speaks]
    Now I'd like to give Ranking Member Graves the opportunity to 
provide some opening remarks and introduce the rest of our members.

    Ms. Escobar. Thank you so much, Madam Chair, and apologies 
for being a few minutes late at the top of the meeting.
    You know, the only thing that I would add is it really is 
an honor to serve on this committee, and I truly do hope that 
we are able to work together to address some of the greatest 
challenges that our communities face, our globe faces, our 
military installations.
    And as the member from the border, from El Paso, Texas, I 
can tell you, so many of the families that I talk to who are 
arriving at our front door from Central America are fleeing the 
ravages of the climate crisis. You know, they don't talk about 
it in that way, but they talk about food insecurity, they talk 
about being unable to farm on their land, they talk about the 
impact of hurricanes and natural disasters.
    So I think over the long term, the work that we do will not 
just help create a greater planet, but it will create stability 
for people in their home countries. So really looking forward 
to the work ahead with everyone.
    I yield back.
    Ms. Castor. Thank you, Rep. Escobar, and welcome again.
    Now I would like to give Ranking Member Graves the 
opportunity to provide some opening remarks and introduce the 
Republican side of the aisle, including our two new Republican 
members.
    Ranking Member Graves.
    Mr. Graves. Thanks.
    Ms. Castor. You are recognized.
    Mr. Graves. Hey, Madam Chair. Thank you.
    Welcome, everyone, to the committee. Really excited to get 
back to work as quickly as possible, and I hope that we are 
able to actually get together and meet in person very soon so 
we can begin addressing some of the very important issues that 
are in front of us.
    The climate issue has always been very important, but I 
think some of the recent actions by this administration, 
executive orders and others, have had a significant impact on 
our energy industry. And whether that is renewable energy or 
conventional fuels, it has had a significant impact on our 
energy industry, on energy prices in a very short period of 
time, which makes this issue even more urgent.
    Madam Chair, as you know, we have discussed in the past 
that all of us are committed to an American based clean energy 
future, and it is important that as we move forward, we come up 
with informed policies that are based upon science, based upon 
evidence, based upon data, and perhaps building upon some of 
the successes that the United States has been able to achieve 
in being the largest emissions reducing country in the world.
    As a matter of fact, President Obama had established the 
Clean Power Plan, which was intended to reduce emissions by 32 
percent from a 2005 baseline, and we were supposed to hit that 
target, according to the Clean Power Plan, by 2030. And even 
during the Trump administration, which, of course, perception 
perhaps was very different, we hit that 2030 target in 2019. 
And, Madam Chair, we did that without the mandates, without 
restrictions, without coming in and trying to pick energy 
technology winners and losers. We did it by letting the market 
do what it does and, again, just blew away some of these 
targets.
    Madam Chair, you and I--and I hope I am not disclosing a 
private conversation, but we had a great conversation yesterday 
talking about areas where we can work together and cooperate, 
areas like resiliency and adaptation. We both represent 
important coastal communities in this Nation. Areas like 
ensuring that our research and development strategy complies or 
is based upon America's resources and some of the opportunities 
before us to continue reducing emissions and ensure affordable, 
exportable energy, clean energy solutions. Talking about energy 
efficiency and conservation and building upon some of the 
successes.
    And so I am very hopeful that we can move forward, again, 
in an evidence based direction, in a bipartisan direction, that 
truly yields the best American based clean energy future that 
we can have.
    Madam Chair, we have a number of returning rock stars on 
our side as well. I am really looking forward to working with a 
number of your members that I am very close with.
    We have our Republican policy chairman, Gary Palmer from 
Alabama, who is back.
    We have our pharmacist, Buddy Carter from Georgia, who 
likes to remind folks that he represents the entire coast of 
Georgia and that Georgia has--they are in the top 50 in terms 
of timber-producing states in the United States, and they have 
the third largest St. Patrick's Day parade in Georgia. Sorry.
    We have Congressman Kelly Armstrong from North Dakota that 
has an extensive energy background, particularly on the natural 
gas side, and has just been a wealth of knowledge for the 
committee.
    We have Carol Miller from West Virginia, who, once again, 
coming from a coal state, a mining state, is really the face of 
this kind of energy future and how we do it in a way that is 
very sensitive to the needs of our communities across the 
United States, and, again, we ensure an energy policy based 
upon our resources here in America.
    Madam Chair, we also have two new members that I am very 
excited to welcome to the committee. We have Congressman 
Anthony Gonzalez from Ohio. And Congressman Gonzalez has an 
extensive background, not just in professional sports, but also 
in business and technology. And, Congressman--and by the way, 
Ohio is, once again, one of those states that has been fueling 
America's energy revolution.
    And last but not least, we have Congressman Dan Crenshaw 
from Texas, that, once again, not just brings the--Texas, 
which, you know, one of our biggest energy producing states in 
America--not just brings that perspective to the table, but 
also, very importantly, Madam Chair, brings a national security 
perspective to the table, which I think is really important as 
we think about our energy future.
    So with that, I assume it is okay to yield to them for 
quick introductions?
    Ms. Castor. Please do.
    Mr. Graves. Congressman Gonzalez.
    Mr. Gonzalez. Sure. I will be very quick.
    So, great to be on this Select Committee. Great to work 
with everybody on both sides, Republican and Democrat.
    As Garret said, I am from northeast Ohio, and, you know, 
while admittedly the climate situation is not one that is top 
of mind for most of my constituents, reliable and affordable 
energy certainly is, and so is having an economy where 
everybody has an opportunity to succeed no matter what your 
skill level is.
    And so the way that I have come into the climate debate is 
by focusing a lot on Lake Erie, which is right in my backyard, 
where we have had rising water levels. We have had increased 
flooding. From when I was a child, we had almost no flooding, 
whereas now I get flooded at least three or four times a year, 
and everybody sort of notices that.
    And so the perspective I will bring to this debate is one 
that focuses on understanding the tradeoffs between our 
economic security and our climate goals, and also being a big 
proponent of finding and facilitating the R&D discoveries that 
are going to help power us through this.
    So, again, thank you all for having me. It is great to be 
with everybody, and I will yield back.
    Mr. Graves. Congressman Crenshaw.
    Mr. Crenshaw. Thank you. Thanks for having me here. It is 
an honor to be a part of this, such an important issue. It is 
an important issue to get right. The solutions are what I am 
after. And last Congress, I was able to pass two bipartisan 
bills, LEADING Act and the New Energy Frontier, both associated 
with carbon capture and carbon utilization.
    Looking--I am going to be hitting on a few themes. One, 
always talking about the tradeoffs and the costs and the 
benefits. Over and over and over again, I see too often that 
there is a preferred solution that--and then the tendency when 
you have a preferred solution is to exaggerate the benefits of 
that solution and diminish the cost associated with it.
    This should be our focus, what works and what doesn't. What 
has worked in the past, both in the United States and in other 
countries, and what has not. We talk about energy--or we talk 
about environmental justice all the time. I am going to talk to 
you about energy justice and what that means to people, people 
trying to get out of poverty, people who can't afford higher 
electric bills, people who want reliable energy when it gets 
cold or hot. This has to be part of the discussion, and in many 
cases, it hasn't been. So really happy to be a part of this and 
be solutions oriented for things that will work to solve this 
problem.
    Thank you for having me.
    Mr. Graves. I yield back.
    Ms. Castor. All right. Well, welcome, Rep. Escobar, Rep. 
Gonzalez, Rep. Crenshaw. We are thrilled that you all have 
joined the Climate Committee.
    We are going to have some great debates, and we do intend 
to be solutions oriented. And I hope, if you haven't had an 
opportunity to review our climate action plan that was released 
last year, I encourage you to do it. There are a lot of good 
bipartisan solutions in there, and we need to build bipartisan 
support to press ahead.
    So now we will move to our first order of business, the 
consideration and adoption of the Select Committee's rules for 
the 117th Congress. I ask for unanimous consent that the 
proposed rules be considered read and open for amendment at any 
point.
    [The information follows:]

             In the Select Committee on the Climate Crisis

                      117th Congress, 1st Session

                             March 19, 2021

                                ------                                


                              A Resolution

                         Offered by Ms. Castor

 To adopt rules of the Select Committee on the Climate Crisis pursuant 
                                  to 
   clause 2 of rule XI of the Rules of the House of Representatives.

    Resolved, That the Rules of the Select Committee on the Climate 
Crisis for the 117th Congress shall be:
RULE 1. GENERAL PROVISIONS.
    (a) The provisions of section 4(d) of H. Res. 8 (117th Congress) 
governing the proceedings of the Select Committee on the Climate Crisis 
(hereinafter referred to as the ``Committee'') are hereby incorporated 
by reference and nothing herein shall be construed as superseding any 
provision of that section. The Rules of the House of Representatives 
shall apply to the Committee to the extent that they are not 
inconsistent with that title.
    (b) The rules of the Committee shall be made publicly available in 
electronic form and published in the Congressional Record not later 
than 30 days after the Committee adopts its rules.
RULE 2. MEETINGS.
    (a) In General.--
        (1) The regular meeting date of the Committee shall be the 
        first Tuesday of every month when the House is in session in 
        accordance with clause 2(b) of rule XI of the Rules of the 
        House of Representatives. If the House is not in session on the 
        first Tuesday of a month, the regular meeting date shall be the 
        third Tuesday of that month. A regular meeting of the Committee 
        may be dispensed with if, in the judgment of the Chair of the 
        Committee, there is no need for the meeting.
        (2) Additional meetings may be called by the Chair of the 
        Committee as the Chair considers necessary, in accordance with 
        clause 2(g)(3) of rule XI of the Rules of the House of 
        Representatives.
    (b) Meetings of the Committee shall be called to order and presided 
over by the Chair or, in the Chair's absence, by a member designated by 
the Chair to carry out such duties.
    (c) Notification.--
        (1) Pursuant to clause 2(g)(3) of Rule XI of the Rules of the 
        House, the Chair shall make a public announcement of the date, 
        place, and subject matter of a Committee meeting (other than a 
        hearing), which may not commence earlier than the third 
        calendar day (excluding Saturdays, Sundays, or legal holidays 
        except when the House is in session on such a day) on which 
        members have notice thereof.
        (2) The agenda for each Committee meeting, setting out all 
        items of business to be considered, shall be established by the 
        Chair and provided to each member of the Committee at least 36 
        hours (exclusive of Saturdays, Sundays, and legal holidays 
        except when the House is in session on such days) in advance of 
        the commencement of such meeting.
    (d) The requirements of paragraph (c) may be waived by a majority 
vote of those present, a quorum being present, or by the Chair with the 
concurrence of the Ranking Member. If the requirements of paragraph (c) 
are waived, the Chair shall notify the members of the Committee at the 
earliest possible time.
RULE 3. HEARINGS.
    (a) Announcement of Hearings.--
        (1) Pursuant to clause 2(g)(3) of Rule XI of the Rules of the 
        House, the Chair shall announce the date, time, place, and 
        subject matter of any hearing of the Committee, which may not 
        commence earlier than one week after such notice.
        (2) A hearing may commence sooner than specified in (a)(1) if 
        the Chair, with the concurrence of the Ranking Member, 
        determines there is good cause or the Committee so determines 
        by majority vote, a quorum being present. The Chair shall 
        announce the hearing at the earliest possible time.
    (b) Written Witness Statement; Oral Testimony.--
        (1) Filing of Statement.--To the greatest extent practicable, 
        each witness who is to appear before the Committee shall file 
        with the clerk of the Committee a written statement of his or 
        her proposed testimony at least two business days in advance of 
        his or her appearance. The clerk of the Committee shall 
        distribute this testimony to the Members of the Committee as 
        soon as is practicable and at least one business day before the 
        hearing. The requirements of this subparagraph may be waived or 
        modified by the Chair after consultation with the Ranking 
        Member.
        (2) Each witness shall limit his or her oral presentation of 
        testimony to no more than five minutes.
        (3) Truth in Testimony.--Each witness appearing in a 
        nongovernmental capacity shall include with the written 
        statement of his or her proposed testimony a curriculum vitae; 
        a disclosure of any Federal grants or contracts, or contracts, 
        or grants, or payments originating with a foreign government, 
        received during the past 36 months by the witness or by an 
        entity represented by the witness and related to the subject 
        matter of the hearing; and a disclosure of whether the witness 
        is a fiduciary (including, but not limited to, a director, 
        officer, advisor, or resident agent) of any organization or 
        entity that has an interest in the subject matter of a hearing. 
        The disclosure shall include (A) the amount and country of 
        origin of any payment or contract related to the subject matter 
        of the hearing originating with a foreign government; and (B) 
        the amount and country of origin of any payment or contract 
        related to the subject matter of the hearing originating with a 
        foreign government.
        (4) Availability of Information.--Statements filed under this 
        paragraph shall be made publicly available in electronic form 
        not later than one day after the witness appears.
    (c) Notification of Subject Matter.--As soon as practicable but no 
later than 36 hours before the commencement of a hearing, the Chair 
shall make available to the public and all Members of the Committee a 
concise summary of the subject matter under consideration at the 
hearing, any relevant reports from departments or agencies on such 
matters, and a list of witnesses, including minority witnesses.
    (d) Minority Witnesses.--When any hearing is conducted by the 
Committee on any measure or matter, the minority party members on the 
Committee shall be entitled, upon request to the Chair by a majority of 
those members, to call at least one witness, as selected by the 
minority members, to testify with respect to that measure or matter 
along with witnesses selected by the Chair.
    (e) Opening Statements.--
        (1) Chair and Ranking Member.--At any hearing of the Committee, 
        the Chair and Ranking Member shall each control five minutes 
        for opening statements. The Chair and Ranking Member may 
        recognize other members within their respective five minutes.
        (2) Other Members.--The Chair may allow other members of the 
        Committee to deliver oral opening statements, as appropriate, 
        with the concurrence of the Ranking Member. Such statements 
        shall not exceed five minutes in length and are to be equally 
        distributed between majority and minority members to the extent 
        practicable given the party makeup of the members present. 
        Members not recognized by the Chair for oral opening statements 
        may submit written opening statements for the record.
    (f) Questioning of Witnesses.--The Chair shall initiate the right 
to question witnesses before the Committee, followed by the Ranking 
Member and all other members thereafter.
        (1) Order of Member Recognition.--The right to question the 
        witnesses before the Committee shall alternate between majority 
        and minority members. A member of the Committee may question a 
        witness only when recognized by the Chair for that purpose. The 
        Chair shall recognize in order of appearance members who were 
        not present when the meeting was called to order after all 
        members who were present when the meeting was called to order 
        have been recognized in the order of seniority on the 
        Committee.
        (2) Procedures for Questioning of Witnesses by Members.--Each 
        member shall be limited to 5 minutes in the questioning of 
        witnesses and shall limit his or her remarks to the subject 
        matter of the hearing. After consultation with the Ranking 
        Member, the Chair may recognize members who have already had an 
        opportunity to question the witness for a second period of 5 
        minutes once each member of the Committee present has been 
        recognized once for that purpose.
        (3) Extended Questioning of Witnesses by Members.--Following 
        the questioning of witnesses described in (f)(2) above, the 
        Chair, with the concurrence of the Ranking Member or the 
        Committee by motion, may permit a specified number of members 
        to question one or more witnesses for a specified period of 
        time not to exceed 60 minutes in the aggregate, equally divided 
        between and controlled by the Chair and the Ranking Member.
        (4) Questions for the Record.--Each member may submit to the 
        Chair additional questions for the record to be answered by the 
        witnesses who have appeared. Each member shall provide a copy 
        of the questions in an electronic format to the Committee no 
        later than 10 business days following a hearing. The Chair 
        shall transmit all questions received from members of the 
        Committee to the appropriate witnesses and include the 
        transmittal letter and the responses from the witnesses in the 
        hearing record. After consultation with the Ranking Member, the 
        Chair is authorized to close the hearing record no earlier than 
        15 business days from the date the questions were transmitted 
        to the appropriate witnesses.
    (g) Hearings of the Committee shall be called to order and presided 
over by the Chair or, in the Chair's absence, by a member designated by 
the Chair to carry out such duties.
    (h) Oaths.--The Chair of the Committee, or a member designated by 
the Chair, may administer oaths to any witness before the Committee. 
The Chair or his or her designee may administer the following oath to 
all witnesses prior to receiving testimony: ``Do you solemnly swear or 
affirm, under penalty of law, that the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth, so help you 
God?''
    (i) Claims of Privilege.--Claims of common-law privilege made by 
witnesses in hearings, or by interviewees in investigations or 
inquiries, are applicable only at the discretion of the Chair, subject 
to appeal to the Committee.
RULE 4. OPEN PROCEEDINGS.
    (a) Meetings for the transaction of business and hearings of the 
Committee shall be open to the public, including radio, television, and 
still photography coverage, unless closed in accordance with clause 
2(g) of rule XI of the Rules of the House of Representatives.
    (b) The audio and video coverage of Committee proceeding permitted 
under clause 4 of rule XI of the Rules of the House of Representatives 
shall apply to the Committee.
RULE 5. REPORTS.
    (a) Approval of Official Committee Reports.--Any report completed 
pursuant to section 4(d) of H. Res. 8 (117th Congress) that purports to 
express the views, findings, conclusions, or recommendations of the 
Committee must be approved by a majority vote of the Committee at a 
meeting at which a quorum is present, in accordance with Committee Rule 
7(a)(3). The total number of votes cast for and against, and the names 
of those voting for and against, shall be included in the Committee 
report on the matter.
    (b) Notice of Committee Reports.--Any report described in (a) shall 
not be considered in the Committee unless the proposed report has been 
available to the members of the Committee for at least three business 
days before consideration of such report in the Committee.
    (c) Additional Views.--If, at the time of approval of a report, a 
member of the Committee gives notice of intent to file supplemental, 
minority, additional, or dissenting views for inclusion in the report, 
all members of the Committee shall be entitled to no less than two 
business days after such notice to file such views following clause 
2(l) of rule XI of the Rules of the House.
    (d) Availability of Publications.--Pursuant to clause 2(e)(4) of 
Rule XI of the Rules of the House, the Committee shall make its 
publications available in electronic form to the maximum extent 
feasible. Pursuant to section 4(d) of H. Res. 8 (117th Congress), the 
Committee shall make its publications available to the general public 
in widely accessible formats not later than 30 calendar days following 
the respective dates for completion.
RULE 6. COMMITTEE RECORDS.
    (a) Availability.--Documents reflecting the proceedings of the 
Committee shall be made publicly available in electronic form on the 
Committee's website and in the Committee office for inspection by the 
public, as provided in clause 2(e) of rule XI of the Rules of the House 
of Representatives, within 48 hours of such recorded vote after each 
meeting has adjourned, including a record showing those present at each 
meeting; and a record of the vote on any question on which a recorded 
vote is demanded, including a description of the motion, order, or 
other proposition, the name of each member voting for and each member 
voting against such motion, order, or proposition, and the names of 
those members of the Committee present but not voting.
    (b) Archived Records.--The records of the Committee deposited at 
the National Archives shall be made available for public use in 
accordance with Rule VII of the Rules of the House. The Chair shall 
notify the Ranking Member of any decision, pursuant to clause 3(b)(3) 
or clause 4(b) of such rule, to withhold a record otherwise available. 
Upon written request of any member of the Committee, the Chair shall 
present the matter to the Committee for a determination, which shall be 
subject to 
the same requirements for conduct of Committee business under Committee 
Rule 2.
RULE 7. QUORUMS AND RECORDED VOTES; POSTPONEMENT OF VOTES.
    (a) Establishment of a Quorum.--
        (1) For the purpose of taking testimony and receiving evidence, 
        no fewer than two members of the Committee shall constitute a 
        quorum.
        (2) A majority of the members of the Committee shall constitute 
        a quorum for those actions for which the Rules of the House of 
        Representatives require a majority quorum.
        (3) A majority of the members of the Committee shall constitute 
        a quorum for issuing an official Committee report pursuant to 
        Rule 5 of the Committee rules and section 4(d) of H. Res. 8 
        (117th Congress).
        (4) For the purposes of taking any other action, one-third of 
        the members of the Committee shall constitute a quorum.
    (b) Recorded Votes.--A recorded vote may be demanded by one-fifth 
of the members present.
    (c) Postponement of Votes.--Pursuant to clause 2(h)(4) of the Rules 
of the House, the Chair, after consultation with the Ranking Member, 
may postpone further proceedings when a recorded vote is ordered on the 
question of approving any measure or matter or adopting an amendment 
and may resume proceedings on a postponed vote at any time after 
reasonable notice to Members by the Clerk or other designee of the 
Chair. When proceedings resume on a postponed question, notwithstanding 
any intervening order for the previous question, an underlying 
proposition shall remain subject to further debate or amendment to the 
same extent as when the question was postponed.
RULE 8. COMMITTEE STAFF.
    (a) Professional and other staff of the Committee are subject to 
the provisions of clause 9 of rule X of the Rules of the House of 
Representatives.
    (b) Majority Staff.--The Chair shall appoint and determine the 
remuneration of, and may remove, the employees of the Committee not 
assigned to the minority. The staff of the Committee not assigned to 
the minority shall be under the general supervision and direction of 
the Chair, who shall establish and assign the duties and 
responsibilities of such staff members and delegate such authority as 
he or she determines appropriate.
    (c) Minority Staff.--The Ranking Member shall appoint and determine 
the remuneration of, and may remove, the staff assigned to the minority 
within the budget approved for such purposes. The staff assigned to the 
minority shall be under the general supervision and direction of the 
Ranking Member, who may delegate any authority he or she determines 
appropriate.
    (d) The Chair and Ranking Member have the right to secure one or 
more detailees to assist with the work of the Committee.
RULE 9. BUDGET.
    (a) The Chair, in consultation with the Ranking Member, shall 
prepare a budget providing amounts for staff, committee travel, field 
hearings, investigation, and other expenses of the Committee. Funds 
authorized for the Committee as provided in clause 6 of Rule X are for 
expenses incurred in the activities of the Committee.
    (b) Consistent with clause 9 of Rule X, the Chair shall designate 
an amount equal to 1/3 of the amount provided to the Committee in the 
primary expense resolution adopted by the House of Representatives to 
be under the direction of the Ranking Member for the compensation of 
the minority staff, travel expenses of minority members and staff, and 
minority office expenses. All expenses of minority members and staff 
shall be paid for out of the amount so set aside.
RULE 10. TRAVEL.
    (a) The Chair may authorize travel for any member and any staff 
member of the Committee in connection with activities or subject 
matters under the general jurisdiction of the Committee. Travel to be 
reimbursed from funds set aside for the Committee for any member of 
staff member shall be paid only upon the prior authorization of the 
Chair. Before such authorization is granted, there shall be submitted 
to the Chair in writing the following:
        (1) The purpose of the travel.
        (2) The dates during which the travel is to occur.
        (3) The names of the states or countries to be visited and the 
        length of time to be spent in each.
        (4) An agenda of anticipated activities.
        (5) The names of members and staff of the Committee for whom 
        the authorization is sought.
    (b) Members and staff of the Committee shall make a written report 
to the Chair on any travel they have conducted under this subsection, 
including a description of their itinerary, expenses, and activities, 
and of pertinent information gained as a result of such travel.
    (c) Members and staff of the Committee performing authorized travel 
on official business shall be governed by applicable laws, resolutions, 
and regulations of the House and of the Committee on House 
Administration.
RULE 11. WEBSITE.
    The Chair shall maintain an official Committee website for the 
purpose of carrying out the official responsibilities of the Committee, 
including communicating information about the Committee's activities. 
The Ranking Member may maintain a minority website. To the maximum 
extent feasible, the Committee shall make its publications available in 
electronic form on the official Committee website maintained by the 
Chair.

    The proposed rules were circulated electronically to 
members on Tuesday morning and again yesterday. The proposed 
rules include technical and conforming changes to the rules the 
Select Committee adopted last Congress.
    So I wonder if we have any proposed amendments?
    Without objection, the further reading--okay. Let's see, no 
amendments? Great.
    Mr. Graves. Madam Chair.
    Ms. Castor. Rep. Graves, you are recognized.
    Mr. Graves. Thank you.
    Madam Chair, as you and I discussed this and I told you 
that we were okay with the rules package, I have one request. 
In the truth in testimony section, which is (b)(3), I 
understand that this is one of the greatest revisions in the 
rules, and it is my understanding that this was done in order 
to comply with revisions in House rules related to truth in 
testimony, and obviously those things need to be aligned.
    One of our members brought up an issue this morning, and I 
just want to ask would it be okay if our staffs can get 
together to work to reconcile this. The intention of these 
revisions are to ensure that we have full disclosure of any 
foreign agents or foreign interests that are testifying or 
operating before the committee, which certainly makes sense.
    As we know, some countries operate through surrogates, and 
we have seen that some companies have--excuse me, some 
countries--use companies or not-for-profits and others to 
convey their message and effectively operate in a subversive 
manner.
    And I just--in reading this, it is clearly the intent to 
capture those sorts of folks that may not be fully transparent 
in their background or their motives. And I just wanted to ask 
if it would be okay if our staffs could take a fresh look at 
this provision and just ensure that it would capture anyone 
that is operating on behalf of a foreign government but perhaps 
doing it through a surrogate like a company or something along 
those lines.
    Ms. Castor. Yeah, I appreciate that. And I know Rep. Palmer 
had raised a question on that account.
    So, first of all, thank you for reading the rules and 
thinking them through. The changes relating to that section 
reflect the changes to the House rules, so we like to keep in 
sync with the House rules so to avoid confusion. But I get your 
point. So we will--our staff can discuss and talk about this, 
and if we need to go back to the Rules Committee and have some 
clarification, we can do that. We will also give the bipartisan 
staff the ability to make any technical changes and bring them 
back to us if we need to do that.
    Mr. Graves. Thank you. Thank you, Madam Chair. If my WiFi 
wasn't out and Netflix didn't work, I am not sure I would have 
read them. But thank you.
    Ms. Castor. Okay. Any other questions or comments or 
proposed amendments?
    Seeing none, the question is now on the adoption of the 
rules.
    All those in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it, the rules 
are adopted.
    And without objection, the motion to reconsider is laid 
upon the table.
    I now ask for unanimous consent that the staff be allowed 
to make any technical and conforming changes to the rules 
subject to approval of the minority.
    Hearing no objections, it is so ordered.
    And guess what? We have no further business.
    I would like to thank everyone for attending today's 
meeting. I look forward to a productive year ahead. We are 
going to be developing a number of upcoming hearings, if you 
all have--we welcome any input from all members of the 
committee, so please don't hesitate to pass those along.
    Again, welcome to our new members. Thank you all for 
helping us go through this organizational meeting in a very 
smooth way.
    And, without objection, this meeting is adjourned. Thanks, 
everybody.
    Mr. Casten. Madam Chair, before we adjourn, can I make one 
comment?
    Ms. Castor. Rep. Casten, you are recognized.
    Mr. Casten. So, look, this is a comment mostly to my 
Democratic members. Our illustrious chair, as some of you may 
not be aware, is also the chair of the Congressional Soccer 
Caucus. And with the addition of Reps. Gonzalez and Crenshaw, I 
believe that we now have, maybe with the exception of Rep. 
LaHood, all of the Republican players on the congressional 
soccer team last year.
    We have the coach on our side and myself, and so to my 
Democratic colleagues, we need to beef up the squad, and I 
would encourage you to join the Congressional Soccer Caucus and 
play once we get to a COVID point again, because there is far 
too much leaning to one side of the aisle in this----
    Mr. Huffman. You don't want to see me playing soccer, Sean, 
but if we ever have a tennis match or if anyone wants to play 
volleyball, we will talk.
    Mr. Casten. I think it was myself and Rick Larsen and a lot 
of much younger staff on the Democratic side last year, so our 
Republicans are doing a better job at getting the old creaky 
knees out on the field, and I think we have an obligation to 
match their exuberance.
    Mr. Graves. Well, you know what, Congressman Casten, I left 
two ligaments on the field, so you will see those, I can tell 
you.
    Ms. Castor. Yes, that is right.
    Ms. Bonamici. Well, and as the representative of----
    Mr. Casten. That is right. I take it back, Garret. I wanted 
to man up on you.
    Ms. Bonamici. I represent Nike, and they typically sponsor, 
and so I am getting pretty good at the coin toss, but I don't 
think you will see me doing much else on the field. May the 
best team win.
    Ms. Castor. Excellent. Okay. Thanks, everybody.
    Without objection, the meeting is adjourned. Have a great 
weekend.
    [Whereupon, at 10:17 a.m., the committee was adjourned.]
    
                            [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
